                  UNITED STATES DEPARTMENT OF AGRICULTURE

                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




DATE:          February 15, 2001

REPLY TO
ATTN OF:       06401-13-FM

SUBJECT:       U.S. Department of Agriculture, Commodity Credit Corporation’s
               Financial Statements for Fiscal Year 2000

TO:            Board of Directors
               Commodity Credit Corporation


We attempted to cond uct the audit of the financial statements of the Commodity Credit
Corporation (CCC) as of September 30, 2000, for the fiscal year then ended. CCC advised the
Office of Inspector General (OIG), and the Department’s Chief Financial Officer, however, that
it was not able to provide auditable financial statements for fiscal year (FY) 2000 in a timely
manner.

It is important to note that we have been unable to issue an unqualified opinion on CCC’s
financial statements for 3 consecutive years. Our audit of “Commodity Credit Corporation’s
Financial Statements for Fiscal Year 1998,” Audit Report No. 06401-9-FM, dated February 22,
1999, resulted in a disclaimer of opinion because the CCC was not able to provide sufficient,
competent evidential matter to substantia te certain financial statement line items related to its
direct and guaranteed credits to foreign countries and related activities within the timeframes
established by the Department. Although CCC had reported that it had taken actions to correct
the problems noted in our FY 1998 report, we found, however, during our FY 1999 and FY 2000
audits, the problems had not materially improved. In addition, CCC experienced some problems
relating to conversion of its domestic program operations to a new accounting system, which
also impacted the availability and timeliness of accounting data for its FY 2000 financial
statements.

CCC officials provided financial statements for our audit on February 1, 2001. However, the
statements were incomplete and in error. As a result, we are unable to express an opinion at this
time on the CCC’s Balance Sheet as of September 30, 2000, and the related Statements of Net
Cost, Changes in Net Position, and Budgetary Resources and Financing for that period.
Board of Directors                                                                       2


We plan to address the CCC financial management problems that have impacted the timely and
accurate completion of CCC’s financial statements in a separate report to departmental and CCC
officials.


/s/

ROGER C. VIADERO
Inspector General


January 22, 2001
